Memorandum from the Office of the Inspector General



September 11, 2006

John E. Long, Jr., WT 7B-K

FINAL REPORT – INSPECTION 2006-531I – REVIEW OF TVA’S ACTIONS FOR
ADDRESSING THE POTENTIAL H5N1 VIRUS PANDEMIC



Attached is the subject final report for your review. As discussed with you on August 10,
2006, this inspection is being issued for informational purposes only; therefore, no response
is necessary.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Gregory C. Jaynes, Deputy Assistant Inspector
General, Inspections, at (423) 751-7821 or me at (865) 632-6309. We appreciate the
courtesy and cooperation received from your staff during this review.




Ben R. Wagner
Assistant Inspector General
  (Audits and Inspections)
ET 3C-K

GCJ:SDB
Attachment
cc (Attachment):
     Peyton T. Hairston, Jr., WT 7C-K
     Tom D. Kilgore, WT 7B-K
     Richard W. Moore, ET 4C-K
     Phillip L. Reynolds, LP 3A-C
     OIG File No. 2006-531I
REVIEW OF TVA’S ACTIONS FOR
ADDRESSING THE POTENTIAL H5N1
VIRUS PANDEMIC

          2006-531I
      September 11, 2006
Agenda

     Background
     Objectives and Scope
     Methodology
     Observations
     Conclusions




                             2
Background

     President George W. Bush has directed each federal department and agency to
      develop a comprehensive preparedness plan in the event this country
      experiences a pandemic influenza outbreak.

     The Office of Personnel Management (OPM) has been tasked with providing
      guidance on human capital management and Continuity of Operations Plan
      criteria.

     OPM is in the process of creating a handbook that provides guidance and
      information on the programs and flexibilities available to federal managers and
      employees in case of a pandemic. The guide is being developed to help answer
      questions about Agency/Department hiring flexibilities and employee’s:
       –   Rights.

       –   Entitlements.

       –   Alternative work arrangements.

       –   Benefits.

       –   Leave and pay flexibilities.

                                                                                        3
Objectives and Scope

     Objectives: The objectives of this inspection are to (1) identify any
      guidance/requirements issued by the OPM regarding a potential influenza
      pandemic and (2) determine if TVA is in compliance with OPM requirements
      and/or has taken other proactive actions.


     Scope: The scope of this inspection will include reviewing (1) any guidance/
      requirements issued by OPM and (2) TVA policies, procedures, and directives
      addressing the guidance issued.




                                                                                     4
Methodology

     To achieve our objectives, we:
       –   Reviewed guidance issued by OPM with regards to the influenza pandemic.
                OPM Agency Guidance – Human Capital Management Policy for Pandemic Influenza:
                    –   The first installment, issued on June 9, 2006, addressed Hiring Flexibilities, Leave Flexibilities,
                        and Miscellaneous.
                    –   The second installment, issued on July 7, 2006, addressed Pay Flexibilities, Benefits, and
                        Alternative Work Arrangements.

       –   Interviewed TVA management and reviewed pertinent documentation to identify
           actions taken by TVA in response to OPM or other applicable guidance.



      This inspection was conducted in accordance with the “Quality Standards for Inspections.”




                                                                                                                              5
Summary

     As of July 7, 2006, OPM had issued two out of three installments of Policy
      Guidance on Human Capital Management to help federal managers and
      employees deal with the effects of potential pandemic outbreak.
       –   OPM did not identify any steps in the agency guidelines that federal agencies are
           required to take to prepare for a pandemic outbreak.
     TVA is aware of OPM’s Agency Guidance and has a team reviewing it.
     TVA has adopted and is adapting to guidance issued by Nuclear Energy
      Institute regarding preparation for a pandemic.




                                                                                               6
Observation 1: OPM Agency Guidance

     The handbook issued provides guidance and information on human capital
      issues and the programs and flexibilities available to federal managers and
      employees to help deal with the effects of a potential pandemic outbreak.
       –   However, OPM did not identify any steps in the agency guidelines that federal
           agencies are required to take to prepare for a pandemic outbreak.
     As of July 7, 2006, OPM has issued two of the three installments* on Policy
      Guidance on Human Capital Management. The guidance includes information
      on:
       –   Hiring Flexibilities.
       –   Leave Flexibilities.
       –   Pay Flexibilities.
       –   Benefits.
       –   Alternative Work Arrangements.
       –   Miscellaneous.

      * The third installment is scheduled to address Information Regarding Overseas Employees and Telework
       Guidance.




                                                                                                              7
Observation 2: TVA Actions to Prepare
for Pandemic Influenza

     TVA is aware of the guidance issued by the OPM, and the guidance is
      currently being reviewed by the Core Team of TVA’s Pandemic Planning
      Team.
     TVA is following the guidance issued by the Nuclear Energy Institute (NEI).
      NEI:
       –   Is the policy organization of the nuclear energy and technologies industry.
       –   Participates in both the national and global policy-making process.
     The Pandemic Planning Team has developed plans for TVA business units
      to follow.
       –   The guidance should be issued to TVA organizations by August 11, 2006.
     TVA’s Pandemic Planning Team’s goal is to have a set plan in place by
      September 29, 2006.




                                                                                         8
Observation 2: TVA Actions to Prepare
for Pandemic Influenza (cont’d)
    NEI Guidance
     In March 2006, the NEI issued the “Nuclear Sector Coordinating Council
       Influenza Pandemic Threat Summary and Planning, Preparation, and
       Response Reference Guide” to:
         –   Describe the pandemic threat, frame it for discussion, provide information, and to
             assist nuclear sector owners and operators in developing plans to manage this
             threat to the sector’s business continuity.
         –   Provide an overview of specific planning functions by key action, using the five
             phases of a pandemic outbreak identified by the World Health Organization and
             adapted by the NEI.
       According to the head of the Pandemic Planning Team, NEI guidance is being
        followed by other utility organizations both regionally and nationally.
       A matrix containing each of the key actions identified by the NEI has been
        used by the Pandemic Planning Team to make assignments to complete that
        action.




                                                                                                  9
Observation 2: TVA Actions to Prepare
for Pandemic Influenza (cont’d)

    Pandemic Planning Team
     TVA has formed a Pandemic Planning Team to develop an agency-wide plan
       to enable TVA to successfully operate during and after a pandemic. The
       Pandemic Planning Team is:
         –   Divided into two sub-teams, each with approximately 15 members—the Core Team
             and the Essential Functions Team.
         –   Focused not only on the H5N1 virus but is developing a permanent plan that TVA
             can use in the case of any pandemic.
       The Core Team is addressing TVA-wide issues such as:
         –   Developing a communication plan to inform employees and their families about
             (1) preparation for a pandemic and (2) practicing good hygiene to prevent infection.
         –   Purchasing and stockpiling a large number of supplies, both to encourage good
             hygiene in employees and to stock TVA locations that may be used to sequester
             essential employees in the event of an outbreak.
         –   Establishing a point-of-contact list with the state and local government in case of an
             outbreak.
         –   Reviewing Human Resources policies to determine how the policies might need to
             be modified or enforced in the event of a pandemic outbreak.



                                                                                                10
Observation 2: TVA Actions to Prepare
for Pandemic Influenza (cont’d)
       The Essential Functions Team is studying positions within TVA and
        determining whether they are essential or nonessential to the operations of
        TVA in the event of a pandemic outbreak.
         –   Employees identified as essential will be required to either come to work and be
             sequestered during an outbreak or work from home.
         –   A listing of essential TVA employees will be provided to local health authorities so
             the employees can be placed on a priority vaccination list in case of a pandemic
             outbreak.




                                                                                                11
Conclusion

     OPM has issued guidance for federal agencies to follow in the event of a
      pandemic; however, none are mandatory for agencies to implement. TVA is
      currently reviewing OPM guidance and has taken other proactive actions by
      adopting and adapting the NEI guidelines.




                                                                                  12
